No.
dn The
Supreme Court of the United States

 

 

Jeffrey J. Walker and

Walker Properties of Woodbury ITI, LLC,
Petitioners,

vs.

Commissioner of Management and Budget and the State of Minnesota,
Respondents.

ON PETITION FOR WRIT OF CERTIORARI
TO THE MINNESOTA COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI
AND APPENDIX

 

RULE 33.1(h) CERTIFICATE OF WORD COUNT

As preparer of the document above, I hereby certify that the Petition for a Writ
of Certiorari and Appendix, Docket no. , complies with Rule 33.1
in that it contains the proper typeface in the proper size. I further certify that the
document contains 8,692 words total, excluding the parts of the document that are

exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on (o/c , 2020.

oe

Stephen M. West
Bachman Legal Printing

e this 16th day of October, 2020.

 

Subscribed and sworn to before

     
 

EDWIN R. MOTCH
NOTARY PUBLIC - MINNESOTA

Notary Public SS My Commisenon Exnizes Jan $1, 2025 (°

 

 

 

2020 - BACHMAN LEGAL PRINTING ~ FAX (612) 337-8053 — PHONE (612) 339-9518 or 1-800-715-3582
